              FINANCIAL REPORTING AT THE
           WASHINGTON HEADQUARTERS SERVICES

Report No. D-2001-081                      March 15, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
ODC                   Obligation Data Code
WAAS                  WHS Allotment Accounting System
WHS                   Washington Headquarters Services
                        Office of the Inspector General, DoD
Report No. D-2001-081                                                    March 15, 2001
   (Project No. D2000FA-0146.002)

                             Financial Reporting
                   at the Washington Headquarters Services

                                    Executive Summary

Introduction. This report is the third, and last, in this series addressing the underlying
financial reporting processes that cause abnormal balances on the trial balances of Other
Defense Organizations. An account balance is abnormal when the reported balance
does not comply with the normal debit or credit balance established in the general
ledger chart of accounts. We performed the audit in response to the Chief Financial
Officers Act of 1990, as amended by the Federal Financial Management Act of 1994,
which requires DoD and other Government agencies to prepare consolidated financial
statements. The DoD Agency-Wide financial statements include a reporting entity
entitled “Other Defense Organizations-General Funds.” This entity represents a
consolidation of financial information from various Defense organizations and funds
that use the Treasury Index 97 symbol. The Washington Headquarters Services is one
of these Defense agencies. The Washington Headquarters Services maintains the
official accounting records for funds that it receives, and also provides accounting
support to various funds allocated to the Office of the Secretary of Defense, the United
States Court of Appeals for the Armed Forces, the Pentagon Reservation Maintenance
Revolving Fund, and the Building Maintenance Fund. Preceding reports addressed
financial reporting by the Defense Finance and Accounting Service-Indianapolis and
Defense Finance and Accounting Service-Cleveland.

Objectives. The audit objective was to determine the accuracy and completeness of the
data that the Washington Headquarters Services submitted to the Defense Finance and
Accounting Service-Indianapolis (Sustaining Forces) for inclusion in the FY 2000 Other
Defense Organizations financial statements. In addition, we reviewed the management
controls related to our objective.

Results. Trial balances prepared from accounting records that the Washington
Headquarters Services maintained included $74.9 million of net abnormal balances.
We examined 95 percent of the abnormal balances included in trial balances dated
March 31, 2000, and found that:

      • prior fiscal year ending account balances were not transferred to subsequent
        fiscal years and caused $51.8 million of net abnormal balances in FY 2000;

      • accruals and corresponding disbursements were not consistently recorded as
        either Government or non-Government transactions and caused $13.7 million
        of net abnormal balances; and
     • the Washington Headquarters Services Allotment Accounting System posted
       expense adjustments for prior reporting periods to the incorrect general ledger
       expense accounts in the current year rather than to a prior period adjustments
       account and caused $5.6 million of net abnormal balances.

The Washington Headquarters Services took effective action to reduce deficiencies
identified during the audit, thereby reducing reported year-end total net abnormal
balances from $159.2 million as of September 30, 1999, to $4.6 million as of
September 30, 2000.

Until abnormal balances and control deficiencies are corrected, FY 2001 and future
financial statements prepared for the Other Defense Organizations will be misstated.
Additionally, financial statement preparers will not be able to properly eliminate
intra-DoD transactions on the Defense Agency-Wide financial statements. For details
of the audit results, see the Finding section of the report. See Appendix A for details
on the management control program.

Summary of Recommendations. We recommend that the Director, Washington
Headquarters Services, review all accruals and disbursements and correct related
transactions that are not consistently recorded as Government or non-Government
transactions. We also recommend that the Washington Headquarters Services
Allotment Accounting System be modified to post adjustments affecting prior periods to
the Prior Period Adjustments account, and that query interfaces for transaction research
be developed for each general ledger account. Further, we recommend that the system
user’s manual be revised to provide detailed guidance to system users on how to
research details supporting account balances, to identify obvious errors and implement
corrective actions, and to describe the types of data and formulas used to calculate
account balances.

Management Comments. The Director, Washington Headquarters Services,
concurred with the finding and recommendations, stating that a separate
recommendation outlining detailed elements of written guidance was not needed
because the intent of the recommendation was already included in the recommendation
to revise the system user’s manual. Washington Headquarters Services is currently
completing modifications to the accounting system and estimates completion of all
actions by December 31, 2001. See the Finding section for a discussion of
management comments, and the Management Comments section for the text of the
comments.

Audit Response. Management comments were responsive to the recommendations.
Based on comments, we made minor wording changes to clarify the finding and
recommendations. We also modified the recommendation to revise the system user’s
manual to include detailed guidance on how to identify obvious errors in account
balances and to implement corrective actions. We deleted from the final report the
recommendation outlining detailed elements of written guidance. No additional
comments to the report are required.




                                           ii
Table of Contents

Executive Summary                                             i


Introduction
     Background                                               1
     Objectives                                               2

Finding
     Accuracy of Trial Balances                              3

Appendixes
     A. Audit Process
         Scope                                               13
         Methodology                                         14
         Management Control Program Review                   14
         Prior Coverage                                      15
     B. WHS Allotment Accounting System (WAAS) Users         16
     C. General Ledger Accounts With Net Abnormal Balances   17
     D. Report Distribution                                  18

Management Comments
     Washington Headquarters Services                        21
Background

    Other Defense Organizations. The audit was performed as part of the
    continuing audit work of the Inspector General, DoD, in support of the Chief
    Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994. Specifically, the DoD Agency-Wide financial
    statements include a reporting entity entitled “Other Defense Organizations-
    General Funds.” This entity represents a consolidation of financial information
    from various Defense organizations and funds that use the Treasury Index
    Symbol 97 (also referred to as Department 97). The Washington Headquarters
    Services (WHS) is one of these Defense organizations.

    Washington Headquarters Services. WHS provides accounting support to
    specified DoD organizations, and system support for the WHS Allotment
    Accounting System (WAAS), an accounting system used for a majority of the
    individual organizations and funds. WHS maintains the official accounting
    records for funds that it receives, and also provides accounting support to
    various funds allocated to the Office of the Secretary of Defense, the United
    States Court of Appeals for the Armed Forces, the Pentagon Reservation
    Maintenance Revolving Fund, and the Pentagon Building Maintenance Fund.
    As part of the overall quality control process, WHS personnel are required to
    prepare trial balances on a quarterly basis to identify deficiencies when they
    occur and correct those deficiencies before preparing the year-end financial
    statements. Inspector General, DoD, Report No. D-2000-153, “Compilation of
    the FY 1999 Financial Statements for Other Defense Organizations-General
    Funds,” June 23, 2000, states that WHS reported $159.2 million of total net
    abnormal balances that were included in the year-end trial balances. An account
    balance is abnormal when the reported balance does not comply with the normal
    debit or credit balance established in the general ledger chart of accounts.

    WHS Allotment Accounting System. WHS uses the WAAS to perform
    general ledger accounting. The WAAS is an automated, transaction-driven
    accounting system using DoD standard general ledger accounts. The WAAS is
    also able to produce trial balances by fiscal year and by appropriation. WHS
    owns the WAAS; however, WHS is not the only user of the accounting system.
    See Appendix B for a list of the other organizations in the DoD that also use the
    WAAS to perform general ledger accounting and to produce trial balances.
    DoD adopted the U.S. Government Standard General Ledger as the DoD
    standard in FY 1999. However, since the WAAS is a DoD legacy system, its
    general ledger accounts were not changed and, therefore, do not fully match the
    U.S. Government Standard General Ledger. According to the DoD Financial
    Management Improvement Plan, Volume II, September 2000, consolidation of
    the WAAS into the Defense Joint Accounting System is scheduled for October
    2004; however, development of the new system is unfunded.




                                        1
Objectives

     The audit objective was to determine the accuracy and completeness of the data
     WHS submitted to the Defense Finance and Accounting Service (DFAS) Center
     for Sustaining Forces-Indianapolis, for inclusion in the FY 2000 Other Defense
     Organizations financial statements. Specifically, we determined why WHS was
     submitting large abnormal balances in its trial balances. In addition, we
     reviewed WHS management controls related to our objectives. See Appendix A
     for a discussion of the audit scope, methodology, review of the management
     control program, and prior coverage related to the audit objectives.




                                        2
           Accuracy of Trial Balances
           Trial balances prepared from accounting records that WHS maintained
           included $74.9 million of net abnormal balances. We examined
           95 percent of the abnormal balances on the March 31, 2000, trial
           balances and found that:

                  •   WHS did not transfer prior fiscal year-ending account
                      balances to the beginning balances in subsequent fiscal years
                      and caused $51.8 million of net abnormal balances in
                      FY 2000;

                  •   WHS did not ensure that accruals and corresponding
                      disbursements were both recorded as either Government or
                      non-Government transactions and caused $13.7 million of net
                      abnormal balances; and

                  •   the WAAS, as configured, did not properly identify accrual
                      adjustments for expenses affecting prior reporting periods
                      and, therefore, did not post those transactions to the correct
                      general ledger accounts, and caused $5.6 million of net
                      abnormal balances.

           The condition also occurred because WHS did not have adequate written
           procedures to review trial balances and to disclose abnormal conditions.
           Also, without direct WHS intervention, the WAAS did not provide all
           the requisite query interfaces for accountants to effectively research and
           correct deficiencies, and the WAAS program manuals did not provide
           detailed instructions on how to research account balances, obtain
           supporting details at the transaction level, and correct identified
           problems.

           WHS took action to correct deficiencies and improve the accuracy of the
           trial balance data for FY 2000. However, until control deficiencies are
           fully corrected, the FY 2001 and future financial statements prepared for
           the Other Defense Organizations likely will be misstated. Additionally,
           financial statement preparers will not be able to properly eliminate intra-
           DoD transactions on the Defense Agency-Wide financial statements.



Mid-Year Trial Balances

    The March 31, 2000, trial balances prepared from accounting records that WHS
    maintained reported $74.9 million of net abnormal balances in 25 general ledger
    accounts. See Appendix C for a list of the general ledger accounts with
    abnormal balances. We reviewed nine general ledger accounts that reported the
    largest net abnormal balances, which totaled $71.1 million and represented
    95.1 percent of the total abnormal balances, as shown in Table 1.



                                        3
                              Table 1. Nine General Ledger Accounts With the
                                       Largest Net Abnormal Balances
                                            as of March 31, 2000

                                                        General         Abnormal          Percent of Total
                                                        Ledger          Balances           Net Abnormal
                      Account Title                     Account          (millions)           Balance

               Fund Balance With Treasury                   1013            $13.0                17.4

               Allotments Received                          4580             13.0                17.4

               Uncommitted/Unobligated
                 Allotments-Direct
                 Program-Current Period                     4611             13.0                17.4

               Appropriated Capital                         3100             12.8                17.1

               Accounts Payable-
                 Government-Current                         2111             10.2                13.6

               Accounts Payable-
                 Public-Current                             2113               3.5                4.7

               Appropriated Capital Used                    5700               2.7                3.6

               Printing and Reproduction
                 Expense                                    6119               1.7                2.3

               Other Services Expense                       6120               1.2                1.6

                   Total                                                    $71.1                95.1


            An account balance is abnormal when the reported balance does not comply
            with the normal debit or credit balance established in the general ledger chart of
            accounts. Although some abnormal balances may be appropriate, the
            accounting office submitting the abnormal balances should explain the cause of
            the abnormal balance in footnotes to the trial balances.

            Balance Transfers Between Fiscal Years. Of the $74.9 million in net
            abnormal balances, $51.8 million occurred because WHS did not correctly
            transfer funding balances for “X”1 year appropriation 0510, Base Realignment
            and Closure, from one fiscal year to the subsequent fiscal year beginning
            in 1998 and continuing through FY 2000. As a result, four general ledger
            accounts reported abnormal balances, as shown in Table 2.



1
    An “X” year appropriation is an appropriation that has an indefinite period of availability for obligation.
    The appropriation remains open for an indefinite amount of time.


                                                        4
                 Table 2. Abnormal Balances Created by
         Fund Balances Not Transferred to Subsequent Fiscal Years

                                                                    Net
                                                   General        Abnormal
                                                   Ledger         Balances
               Account Title                       Account         (millions)

  Fund Balance With Treasury                        1013            $13.0

  Appropriated Capital                              3100              12.8

  Allotments Received                               4580              13.0

  Uncommitted/Unobligated Allotments-
    Direct Program-Current Period                   4611              13.0

      Total                                                         $51.8


The abnormal conditions were not discovered because WHS had not performed
thorough reviews of the trial balances. During the audit, we notified WHS of
the abnormal balances. In response, WHS took action to transfer the funding
balances and clear the abnormal balances.

Matching Accruals and Disbursements. Of the $74.9 million in net abnormal
balances, $13.7 million was reported in two accounts because accruals and
corresponding disbursements were not consistently recorded as either
Government or non-Government transactions, as shown in Table 3.

                  Table 3. Abnormal Balances Created by
                  Unmatched Accruals and Disbursements

                                                                    Net
                                                   General        Abnormal
                                                   Ledger         Balances
               Account Title                       Account         (millions)

  Accounts Payable-Government-Current               2111            $10.2

  Accounts Payable-Public-Current                   2113               3.5

      Total                                                         $13.7


We judgmentally selected and reviewed accrual and disbursement transactions
valued at $13.4 million and $4.2 million, respectively. The abnormal balances
were created in the two accounts because accounting personnel did not ensure
that



                                    5
accruals and corresponding disbursements were both recorded as either
Government or non-Government transactions, which created a mismatch
between related accruals and disbursements.

        Classification as Government and Non-Government. Each obligation,
accrual, and disbursement transaction recorded in the WAAS is assigned an
obligation data code (ODC), commonly referred to as the Government indicator
code, that classifies the transaction as either occurring with other Government
agencies, represented by a “G,” or with non-Government entities, represented
by an “N.” Based on the ODC, the WAAS posts transactions to the
Government and non-Government general ledger accounts. Government
accruals and disbursements are posted to Accounts Payable-Government-Current
(general ledger account 2111), and non-Government accruals and disbursements
are posted to Accounts Payable-Public-Current (general ledger account 2113).
The accrual and related disbursement must have the same ODC for the
transactions to be matched and posted to the correct general ledger account, as
shown in Table 4.

    Table 4. ODC Classifications and General Ledger Accounts Used
       to Report Government and Non-Government Transactions

     Type of          ODC for       ODC for         General Ledger Account
    Transaction       Accruals    Disbursements       Number and Title

                                                    2111, Accounts Payable-
   Government            G               G            Government-Current

                                                    2113, Accounts Payable-
 Non-Government          N               N              Public-Current


        Recording Accruals and Disbursements. For related transactions
where both the accruals and disbursements should have been recorded with the
same ODC, accounting personnel recorded at least $11.4 million and
$1.4 million of transactions with different ODCs for general ledger
accounts 2111 and 2113, respectively. Additionally, when accounting personnel
adjusted accruals and disbursements, they did not record the adjusting entry with
the same ODC as recorded for the original entry. Table 5 summarizes the
transactions with unmatched ODCs.




                                    6
                       Table 5. Related Transactions With Unmatched ODCs
                                            (millions)

               Category of Transactions                     Account 2111            Account 2113

               Accruals and disbursements                    $11.40                     $1.43

               Original accruals and accrual                   2.03                       2.74
                adjustments

               Original disbursement and
                disbursement adjustment                         .08                       0

                    Total                                    $13.51                     $4.17


                    Impact on the Financial Statements and Elimination Process. If the
            abnormal balances are not corrected, those balances, when transferred to the
            Other Defense Organizations financial statements, will cause the amounts
            reported for “Intragovernmental Accounts Payable” and for “Accounts Payable
            (to the public)” to be misstated on the consolidated Balance Sheet. Additionally,
            when the Other Defense Organizations are compiled into the Defense
            Agency-Wide financial statements, transactions with other DoD entities cannot
            be properly eliminated because those transactions are reported as being with the
            public.2 WHS has already demonstrated laudable efforts in correcting existing
            transactions. To prevent a recurrence of these deficiencies in future fiscal
            years, WHS should create and implement written procedures to record related
            transactions with the same ODC.

            Multiple Reporting Periods. Of the $74.9 million in net abnormal balances,
            $5.6 million was reported in three accounts because the WAAS, as configured,
            did not properly differentiate between accrual adjustments affecting multiple
            reporting periods and, therefore, did not post those transactions to the correct
            general ledger accounts, as shown in Table 6.




2
    When financial statements for multiple entities are consolidated into a single financial statement,
    transactions between those entities must be eliminated. Only the transactions with external entities are
    to be reported.


                                                        7
                       Table 6. Abnormal Balances Created by
                       Not Identifying Prior Reporting Periods

                                                                           Net
                                                         General         Abnormal
                                                         Ledger          Balances
                    Account Title                        Account          (millions)

      Appropriated Capital Used                           5700               $2.7

      Printing and Reproduction Expense                   6119                1.7

      Other Services Expense                              6120                1.2

           Total                                                             $5.6


    The WAAS uses a combination of accruals and other transaction data to
    calculate the balance for the capital and expense accounts. During the current
    reporting period, accounting personnel adjusted accruals recorded in multiple
    reporting periods and the WAAS incorrectly posted all of those adjustments to
    the current year capital and expense accounts. General ledger accounts 5700,
    6119, and 6120 are primarily intended to report adjustments for transactions
    recorded in the current reporting period. Adjustments affecting prior periods
    should be posted to Prior Period Adjustments (general ledger account 7400).

    WAAS Reconfiguration. WHS has agreed to reconfigure the WAAS during
    FY 2001 so that prior period adjustments should be correctly posted to general
    ledger account 7400. By modifying the system, WHS, and all other WAAS
    users, should be able to substantially reduce the abnormal balances reported in
    current year capital and expense accounts and directly improve the reliability of
    the Other Defense Organizations financial statements. This system modification
    should benefit all WAAS users. However, for FY 2000, the abnormal balances,
    when transferred to the Other Defense Organizations financial statements, will
    cause the amounts reported as “Other Appropriations Used” on the Statement of
    Changes in Net Position and as “Program Costs” on the Statement of Net Cost
    to be misstated. Further, future Other Defense Organizations financial
    statements will continue to be misstated until the WAAS is reconfigured.



Procedures for Reviewing and Preparing Trial Balances

    Review Procedures. OMB Circular No. A-123, “Management Accountability
    and Control,” June 21, 1995, requires Federal agencies to promptly record,
    properly classify, and correctly account for transactions to prepare timely and
    reliable financial reports. To effectively accomplish those responsibilities,
    Federal agencies are required to prepare written procedures. In the past, WHS
    partially reviewed trial balances to ensure total debits equaled total credits and
    performed other limited analytical procedures. However, the abnormal balances


                                        8
            on the March 31, 2000, trial balances were not discovered because WHS did not
            have adequate written procedures in place for conducting trial balance reviews.
            To avoid a recurrence of large abnormal balances in FY 2001, WHS should
            develop written procedures which specifically:

                                      •     define an abnormal balance,

                                      •     describe specific procedures to compare reported balances to the
                                            normal balances required by the chart of accounts,

                                      •     demonstrate how to compare account balances for multiple reporting
                                            periods to identify unusual trends,

                                      •     enumerate the sequential electronic steps to query the WAAS to
                                            identify detailed transactions supporting account balances, and

                                      •     describe specific actions to correct problems.

            Corrective Actions. During the audit, we demonstrated the use of the Trial
            Balance Analyzer3 to WHS officials, who used the analyzer to review the
            September 30, 2000, year-end trial balances. WHS identified the abnormal
            balances, corrected the majority of those balances, and successfully reduced the
            total net abnormal balances from $74.9 million reported on the March 31, 2000,
            trial balances to $4.6 million reported on the September 30, 2000, trial
            balances, as shown in the graph below.4

                                                          Washington Headquarters Services
                                                            Total Net Abnormal Balances
                                                                      (millions)

                                      80.0
                                                                             $74.9


                                      60.0
                  Abnormal Balances




                                                         $60.6


                                      40.0



                                      20.0


                                                                                                $4.6
                                          0.0
                                                 October 1,1999      March 31,2000    September 30,2000


            Based on prior year trends and the $159.2 million of year-end total net abnormal
            balances as of September 30, 1999, WHS was likely to incur another large
3
    The Trial Balance Analyzer is an electronic database tool developed by the Inspector General, DoD, for
    analyzing trial balances and identifying abnormal balances.
4
    In the graph, $60.6 million of net abnormal balances as of October 1, 1999, represents the portion of the
     $159.2 million of year-end total net abnormal balances as of September 30, 1999, that were transferred
     as beginning balances to FY 2000.


                                                                      9
           abnormal balance condition. However, WHS took action on our concerns and
           used the trial balance analyzer to reduce abnormal balances for FY 2000 and
           future years’ trial balances.

           Explanatory Footnotes. DFAS Memorandum titled “Year-End Instructions for
           Defense Agencies,” June 16, 2000, requires accounting offices submitting trial
           balances for inclusion in the Other Defense Organizations financial statements to
           prepare footnotes explaining abnormal balances. Accounting offices are to
           properly footnote, with a detailed explanation, all abnormal balances or
           conditions and include a written explanation stating the source, the
           circumstances involved, actions underway to resolve the condition, and an
           estimated completion date. The DFAS Memorandum titled “Supplement to
           Fiscal Year-End 2000 Instructions for Defense Agencies,” August 1, 2000,
           provides detailed instructions for preparing footnotes. WHS has not prepared
           trial balance footnotes in the past and should develop written procedures for
           accounting personnel to use when preparing footnotes for future trial balances.



WAAS System Capabilities

           Query Interfaces. Although the WAAS contained predefined standard queries
           for conducting detailed research on account balances, those queries were not
           available in an executable format for accounting personnel. For each of the
           accounts we reviewed, WHS personnel modified the query interface and made
           the queries available in an executable format for the accountants to use. The
           lack of standard queries in an executable format impedes the ability of WHS,
           and other accounting offices which use the WAAS, to perform detailed research
           on account balances.5 For all WAAS users to properly conduct trial balance
           reviews, WHS should develop query interfaces for each of the accounts reported
           on the trial balance and make those queries accessible to personnel responsible
           for performing reviews.

           System Manuals. WHS published a WAAS Design Manual and a WAAS
           User’s Manual to assist users in operating the system. Updating the manuals to
           address trial balance reviews could substantially increase the usefulness of both
           manuals. The WAAS Design Manual should provide a detailed description of
           the queries available to research general ledger account balances, and of the
           mapping process used to transfer transactions to general ledger accounts. The
           WAAS User’s Manual should provide specific instructions on executing queries
           and interpreting the results.




5
    Inspector General, DoD, Report No. D-2001-048, “Financial Reporting for Other Defense
     Organizations at the Defense Agency Financial Services Accounting Office,” February 9, 2001, states
     that the Defense Agency Financial Services accounting office, located at DFAS-Indianapolis (Sustaining
     Forces), could not effectively research details supporting account balances because the WAAS did not
     have predefined queries available in an executable format.


                                                      10
Management Comments on the Finding and Audit Response

    WHS Comments. The Director, WHS Budget and Finance, provided general
    comments on the wording of the Executive Summary, Background, and Finding
    sections of the report, and suggested omitting a sentence in the report on the
    background of the WAAS.

    Audit Response. For clarification, we made minor word modifications to, but
    did not remove, sections of the report.



Recommendations, Management Comments and Audit
  Response

    Deleted Recommendation. As a result of management comments, we modified
    draft Recommendation 3.a. and deleted draft Recommendation 4.

    We recommend that the Director, Washington Headquarters Services:

           1. Review all disbursement and accrual transactions that are not
    recorded with the same obligation data code, identify which transactions are
    entered properly, and correct the corresponding entries.

    Management Comments. WHS concurred. The estimated completion date is
    September 30, 2001.

          2. Modify the Washington Headquarters Services Allotment
    Accounting System as follows:

                  a. Reconfigure the system to correctly post adjustments
    recorded in the current year that affect prior periods to Prior Period
    Adjustments (general ledger account 7400), and

                  b. Develop query interfaces for each general ledger account
    that can be used to research detailed transactions supporting account
    balances.

    Management Comments. WHS concurred and stated that this has been
    completed for the WHS and Defense Finance and Accounting Service
    Indianapolis (Sustaining Forces) versions of the WAAS. WHS also stated that
    the estimated completion date for the Defense Information Systems Agency and
    Department of Defense Education Agency versions of the WAAS is
    June 30, 2001.




                                      11
      3. Revise the Washington Headquarters Services Allotment
Accounting System User’s Manual as follows:

               a. Explain how accountants can research the details
supporting account balances, identify obvious errors, and implement
corrective actions; and

             b. Describe the types of data and formulas used to calculate
account balances.

Management Comments. WHS concurred. The estimated completion date is
December 31, 2001.

Audit Response. Recommendation 3.a. was revised to include the intent of
draft Recommendation 4., which was deleted based on management’s comments
to the draft report.




                                 12
Appendix A. Audit Process


Scope

    Financial Information, Procedures, and Controls Reviewed. We reviewed
    the procedures and related controls used by WHS to prepare financial reports.
    We narrowed our scope to focus on the preparation of trial balances and the
    supporting transactions. We reviewed detailed transactions totaling
    $77.8 million in 9 general ledger accounts from 82 trial balances prepared by
    WHS as of March 31, 2000. We also performed a limited review of the WHS
    trial balance as of September 30, 2000. We reviewed written standard operating
    procedures, disbursing documents, reports on budget execution [SF-133], and
    trial balances for the FY 1999 and FY 2000 reporting periods. We also
    interviewed personnel to determine how information is obtained, recorded, and
    reported in the trial balance financial reports.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance metrics. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains
               U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and financial systems. (01-DoD-2.5.1)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

           •   Financial Management Functional Area. Objective: Reengineer
               DoD business practices. Goal: Improve data standardization of
               finance and accounting data items. (FM-4.4)


                                       13
           •   Financial Management Functional Area. Objective: Strengthen
               internal controls. Goal: Improve compliance with the Federal
               Managers’ Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.



Methodology

    Review of Abnormal Balances. We identified 25 general ledger accounts with
    total net abnormal balances of $74.9 million in 82 trial balances prepared by
    WHS as of March 31, 2000. We then identified general ledger accounts with
    net abnormal balances greater than $1 million, and performed detailed reviews
    of related transactions totaling $77.8 million within the nine general ledger
    accounts with the largest net abnormal balances. We also did a limited review
    of the trial balances prepared by WHS as of September 30, 2000, to identify the
    total net abnormal balances at fiscal year-end.

    Use of Computer-Processed Data. We relied on computer-processed data
    contained in the WAAS. We obtained information on obligations,
    disbursements, and accruals from the WAAS. We performed limited testing on
    the system by reviewing transactions supporting the trial balances. Our limited
    assessments of the system showed that, as configured, the WAAS was posting
    transactions to the incorrect reporting period. However, the lack of reliable
    information did not adversely affect our analysis and, when the data were
    reviewed in context with other available evidence, we believe that the opinions,
    conclusions, and recommendations in this report are valid.

    Audit Types, Dates, and Standards. We performed this financial-related audit
    from June through December 2000 according to auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

                                       14
    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the WHS management controls over the trial balance reporting
    process. Specifically, we reviewed the controls over preparing and reviewing
    trial balances submitted to the DFAS Center for Sustaining Forces-Indianapolis.
    We reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the WHS as defined by DoD Instruction 5010.40.
    WHS controls over the preparation and reporting of trial balances were not
    adequate to ensure that trial balances were accurate and reliable. The weakness
    is material to both the trial balances prepared by the WHS and to the financial
    statements prepared for the Other Defense Organizations-General Funds. The
    recommendations, if implemented, should correct the control weakness. A copy
    of the report will be provided to the senior official in charge of management
    controls for the WHS.

    Adequacy of Management’s Self-Evaluation. WHS officials did not identify
    the review of trial balances for abnormal balances as an assessable unit and,
    therefore, did not identify or report the material management control weakness
    identified by the audit.



Prior Coverage

    Inspector General, DoD
    Inspector General, DoD, Report No. D-2000-153, “Compilation of the FY 1999
    Financial Statements for Other Defense Organizations-General Funds,”
    June 23, 2000

    Inspector General, DoD, Report No. D-2000-104, “Controls Over Obligations
    at Washington Headquarters Services,” March 22, 2000
    Inspector General, DoD, Report No. 98-058, “Payroll Expenses Reported in
    FY 1996 for the Office of the Secretary of Defense,” February 2, 1998

    Inspector General, DoD, Report No. 96-194, “Capitalization of Washington
    Headquarters Services Military Equipment,” July 16, 1996

    Inspector General, DoD, Report No. 96-080, “Annual Reviews of User
    Accounting Controls for the Washington Headquarters Services Allotment
    Accounting System,” February 29, 1996




                                       15
Appendix B. WHS Allotment Accounting System
            (WAAS) Users
The following DoD organizations use the WAAS to perform general ledger accounting
and to produce trial balances:
       Reporting
    Accounting Office                    Defense Organization

1. Washington            Office of the Secretary of Defense
   Headquarters          Pentagon Building Maintenance Fund
   Services              Pentagon Reservation Maintenance Revolving Fund
                         U.S. Court of Appeals for the Armed Forces
                         Washington Headquarters Services

2. DFAS Indianapolis     American Forces Information Service
   (Sustaining Forces)   Armed Forces Radio and Television Service
                         Civilian Health and Medical Programs-Uniformed Services
                         Defense Advanced Research Projects Agency
                         Defense Legal Services Agency
                         Defense Prisoner of War/Missing in Action Office
                         Defense Security Cooperative Agency (Appropriated Funds)
                         Defense Visual Information Center
                         Foreign Cooperative Testing
                         Joint Staff
                         Office of Economic Adjustment
                         Office of the Inspector General, DoD
                         Program Management Instrumentation Target Threat Simulation
                         Television Audiovisual Services Agency
                         Tricare Management Office

3. Defense Information   Defense Information Systems Agency Test Facility
   Systems Agency        Defense Information Systems Agency-Defense Provisioning Information
                            Center
                         Defense Information Systems Agency-Headquarters
                         Defense Information Systems Agency-U.S. Atlantic Command
                         Defense Information Systems Agency-U.S. Central Command and
                            Special Operations Command
                         Defense Information Systems Agency-U.S. European Command
                         Defense Information Systems Agency-U.S. Pacific Command
                         Defense Information Systems Agency-U.S. Southern Command
                         Defense Information Systems Agency-U.S. Space Command
                         Defense Information Systems Agency-U.S. Strategic Command
                         Defense Information Systems Agency-U.S. Transportation Command
                         DFAS Pensacola
                         Joint Spectrum Center

4. DoD Dependents        DoD Dependents Education Activity-Headquarters
   Education Activity
5. Defense Security      Defense Security Cooperative Agency-Foreign Military Sales
   Cooperative Agency




                                           16
Appendix C. General Ledger Accounts With Net
            Abnormal Balances
                                                  General Ledger         Net
General Ledger Account Title                      Account Number   Abnormal Balance
Funds with Treasury                                    1013         $12,969,434.83
Uncommitted/Unobligated Allotments-Direct
   Program-Current Period                              4611          12,969,434.83
Allotments Received                                    4580          12,968,934.83
Appropriated Capital                                   3100          12,761,299.01
Accounts Payable-Government-Current                    2111          10,188,512.95
Accounts Payable-Public-Current                        2113           3,517,861.57
Appropriated Capital Used                              5700           2,734,525.55
Printing and Reproduction                              6119           1,690,790.55
Other Services                                         6120           1,202,374.24
Accrued Expenditures-Paid-Direct Program               4931           1,114,603.32
Funds Disbursed                                        1012           1,032,760.87
Travel and Transportation of Persons                   6116             361,664.55
Accrued Expenditures-Paid-Reimbursable                 4941             281,928.34
Miscellaneous Reimbursements                           5910             219,053.16
Supplies and Materials                                 6121             172,679.64
Personnel Compensation-Civilian                        6111             169,031.71
Unfilled Customer Order without Advance-
   Specific Apportionment                              4232            142,750.10
Transportation of Things                               6117            138,806.49
Reimbursements Earned-Collected–Specific
   Apportionment                                       4254              73,611.08
Funds Collected                                        1011              73,611.08
Equipment (Not Capitalized)                            6122              60,140.09
Personal Benefits-Civilian                             6113              25,854.41
Customer Orders Accepted-Specific
   Apportionment                                       4222              14,162.54
Accrued Expenditures-Unpaid-Direct Program             4910               7,521.70
Rent, Communication and Utilities                      6118               5,341.30
  Total                                                             $74,896,688.74




                                             17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Washington Headquarters Services

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                           18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         19
Washington Headquarters Services Comments




                 21
Final Report
 Reference




  Revised




               22
     Final Report
      Reference




       Deleted




23
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Sandra L. Fissel
Jonathan R. Witter
Juana R. Smith
Jennifer R. Siwula
Dwayne A. Coulson
Carol J. Gresham
